    Department of Health and Human Setices

        7--— OFFICE
             .      OF
      INsPBCTOR GENERAL
                                                        1



    71I- -. .. -—
    I HE PHYSICIAN’S ROLE IN HOMF
                                                    /
I                                             ..-   I
                   HEALTH CARE




          $            -       GIBBS BROWN
          :
          2
          %
            ‘+~+   $
              %-’d$a
               2
                        Inspector   General

                            JmJE 1995
                          OEI-02-94-00170°
                      OFFICE      OF INSPECI’OR          GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE      OF AUDIT        SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE      OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE      OF EVALUATION             AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the New York Regional Office under the direction of the then
Regional Inspector General Thomas F. Tully and Alan S. Meyer, Ph.D. the present Acting
Regional Inspector General, Office of Evaluations and Inspections. Participating in this
project were the following personnel:

New York Region                                     Headquarters

Renee Dunn, P.T. (Project Leader)                   Jennifer Antico
Lucille M. Cop, R.N.                                Barbara R. Tedesco
Nancy Harrison                                      Brian P. Ritchie
                                                    Linda M. Moscoe

To obtain a copy of this report, contact the New York Regional Office at (212) 264-1998
Department of Health and Human Services

       OFFICE OF
  INSPECTOR GENERAL




THE PHYSICIAN’S ROLE IN HOME
        HEALTH CARE
              EXECUTIVE                          SUMMARY


PURPOSE

To describe the current role of the physician in Medicare home health care.

BACKGROUND

Medicare defines home health care as certain services provided under a physician’s

plan ofcarein theresidence ofa homebound patient. Care can consist of services

such as skilled nursing services, home health aide services, physical and occupational

therapy, and medical services. Typically, the care is provided by home health

agencies, home care aide organizations or hospices.


Little data exist about the current nature of physician involvement in home health

care. Services a physician may provide include: managing medical problems,

preparing and reassessing the treatment plan, and documenting medical records.

Concerns have been raised based on audits of certain home health agencies and

anecdotal information that physicians are not appropriately involved in planning and

coordinating home health services.


Medicare covers home visits by a physician the same as any other physician visit.

Until recently, it did not separately cover the services of physicians for managing the

home health care of their patients. In the December 8, 1994 Federal Register, HCFA

issued anew regulation providing separate payment for physician care plan oversight

services.


The HCFA administrator has asked the Inspector General to assist HCFA in its effort

to examine the physician role in home health care. In conducting this inspection we

sent a questionnaire to a random sample of 1000 agencies stratified by census regions.

The agencies were asked about their relationship with their patients’ physicians and

the physician role in home health care. We received 700 completed surveys.

Subsamples of 96 agencies and 85 physicians were interviewed by telephone to obtain

more in-depth answers about the present physician role, Also, we reviewed 1992

beneficiary histories for 191 beneficiaries to determine whether the physician who

signed the plan of care billed for visits to the beneficiary and, if so, how often. All of

our data collection occurred prior to the regulation providing separate payment for

physician plan care oversight services.


FINDINGS

Physicians Are Most Involved in Refem”ng Patienfi, Approving Plans of Care, and
Monitotig the fiogress of Complex Patients

  .    Physicians are usually involved in initiating referrals to home health agencies.


                                             i
  .	   Most of thesample physicians hadarelationship      with thepatient   for whom
       they signed a plan of care.

  .    Physicians review and sign the plans of care.

  .    Physicians are most involved when caring for complex patients.

Physicians are Less Involved in Coordinating Sem”ces, Viiiting Patients At Home and
Participating in Interdkciplinary Conferences

  �    Physicians feel they coordinate their patients’ home care; agencies disagree.

  .	   Physicians do not usually take part in interdisciplinary conferences or make
       home visits.

Both Agencies and Physicians Identifi some Obstaclm and Issues Related to the
Physician Role

  �	   Communication. Most agencies and physicians believe they communicate well
       with each other. However, physicians feel the agencies could improve
       communication by calling at scheduled times and having one nurse responsible
       for contacting the physician. Agencies say having a medical director would
       improve communication.

  �	   Plans of Care. Physicians and agencies generally agree that physicians should
       continue to sign plans of care; agencies feel it is not always necessary for
       recertification or for chronic patients. Three-quarters of the physicians consider
       their arrangement for completing and signing the plans of care satisfactory.

  �	   Burdensome Paperwork. Sixty-five percent of agencies and 51 percent of
       physician respondents find the process of reviewing and signing plans of care
       burdensome. Physicians indicate that there is too much paperwork and find it
       difficult to find the information on the plan of care that they consider
       important.

  �	   Physician Awareness and Education. Some agencies feel that physicians’
       awareness and education in home health care is inadequate, that some
       physicians lack an understanding of the home health benefit.

RECOMMENDATIONS

We support the work of HCFA’S home health work group in reviewing and
restructuring the home health benefit. As home health care continues to expand,
there will be ongoing discussions about the physician role. The HCFA will be pressed



                                            ii
to continue its leadership role to undertake appropriate activity and better define and
tell what the physician role should be. Therefore, we recommend:

  �	   The HCFA should continue its efforts to change the plan of care to ensure it
       conveys critical information to caregivers and relieves unnecessary burden from
       physicians.

  .	   The HCFA should strengthen its efforts to educate both agencies and
       physicians about its policies regarding the physician’s role in home health care.

Issues for Further Study

Based on our findings and on comments received on our draft report, there are a
number of issues about the role of physicians which require further study.

  �	   Should other professionals such as the patient care coordinator, home health
       nurse, physical therapist, occupational therapist, speech therapist or social
       worker take on more responsibility for certain aspects of home health care? If
       so, how does this impact the physician’s role?

  �	   Should the complexity of the case determine physician involvement? If so,
       should the physician be more involved in complex cases and less involved in
       chronic cases?

  �	   Should home health reimbursement be different for different levels of care?     If
       so, should chronic care cases be reimbursed a lower level than those more
       complex cases?

  �	   Does payment to physicians for care plan oversight lead to greater physician
       involvement ?

COMMENTS

Comments on the draft report were received from HCFA, ASPE and the Acting
Assistant Secretary for Management and Budget (ASMB.) Suggestions for additional
information and clarifications of the text have for the most part been incorporated
into the final report. The actual comments received are included in Appendix A.

The HCFA defers action on our recommendations at this time. Nevertheless, we
appreciate their recognition of the importance of our recommendations and support
their efforts towards developing a Core Standard Assessment Instrument which would
significantly impact on the requirements for the plans of care. We look forward to
their decisions on our recommendations after issuance of the final report.

The HCFA, ASPE, and ASMB all commented on physician payment for care plan
oversight. We recognize that HCFA is now reimbursing physicians for care plan


                                            ...
                                           111
oversight. We plan a follow-up study to see whether this has lead to greater physician
involvement and prudent utilization of the home health benefit as HCFAS comments
suggest.

The ASPE suggests that further study is needed to examine the actual behavior of
physicians and other providers. We support further study of physicians in home health
care that could contribute useful information. We added a new section to our report
on issues for further study

Both HCFA and ASPE expressed concerns about specific evaluative issues that fall
outside the scope of this study. This report provides descriptive rather than evaluative
information. We modified the report to make this clearer.

The ASPE raised concerns about bias in self-reported information. This is always a
problem in these kinds of studies. We had addressed it in our original design by
obtaining information from many diverse sources. We obtained information from both
home health agencies and physicians. We also obtained patient payment records to
establish whether a relationship existed between patients and the physicians who
signed the plans of care. We provide a methodology section for the reader to draw
his/her own conclusions.

The ASPE requested that we include study instruments in our reports.     We usually do
not do this, but they are available upon request.




                                           iv
                           TABLE                       OF CONTENTS

                                                                                                                        PAGE
    EXECuT~          S~Y

 moWcTmN                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..    I





 F~INGS            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


    �   Physicians&e       Most Involved in Initiating Care . . . . . . . . . . . . . . . .

                                                                                                 . . . . . . .m. 6

  . Physicians Are Less Involved in Coordinating Services . . . . . . . . . . . . . . . .

                                                                                                           . . . . 8

 � Agencies and Physicians Identify Some Obstacles                  . . . . . . . . . . . . . . . .

                                                                                                     . . . . . . . 9

~COMMENDATIONS            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. II


APPENDIX

A       Comments     . . . . . . . . . . . . . .

                                                    . . . . ..$ .OO . . . . . . . . . . . . . . . . . . . .. OOOO
                                                                                                                . A-1





                                                           v
                         INTRODUCTION

PURPOSE

To describe the current role of the physician in Medicare home health care.

BACKGROUND

Home health care allows people with limited independence to remain in their homes.
The American Medical Association (AMA) defines it as the provision of equipment
and services to the patient in the home for the purpose of restoring and maintaining
his or her maximal level of comfort, function and health. Medicare defines it as
certain services provided under a physician’s plan of care in the residence of a
homebound patient. Patients may require home care because of acute illness, long-
term health conditions, permanent disability or terminal illness.

Home care is one of the nation’s fastest growing segments of health care. Patients are
living longer, are being discharged from the hospital earlier and receiving more
complex care in the home. This care can consist of a variety of services such as skilled
nursing care, home health aide services, speech-language therapy, physical and
occupational therapy, medical services, medical supplies and durable medical
equipment.

Typically, home health care is provided by home health agencies, home care aide
organizations or hospices. The National Association for Home Care (NAHC)
identified a total of 13,951 home care agencies in the United States as of February
1993. Of this total, more than half are certified Medicare home health agencies or
hospices. Approximately 6 million individuals received home care services in 1993.
Skilled nursing and aide services were the most frequently offered services by all types
of providers, followed by physical therapy and speech therapy.

Physiciim-3 role

Little data exist about the current nature of physician involvement in home health
care. Literature indicates that they are seen as the “gatekeepers” of service,
responsible for planning and supervising most home health care. Concerns have been
raised based on audits of certain home health agencies and anecdotal information that
physicians are not appropriately involved in planning and coordinating home health
services. Some say physicians simply sign the plan of care without reviewing it or
without knowing the patient.

Services a physician may provide include: making the medical diagnosis     and managing
medical problems; preparing a treatment plan with short and long term      goals; ordering
ancillary personal care; prescribing equipment and supplies; reassessing   the treatment
plan; documenting medical records, and providing for 24-hour physician      coverage.
The AMA formed a Home Care Advisory Panel in 1987 to consider educational
efforts to assist physicians in better understanding their role in the delivery of medical
care in the home. To increase such physician participation, the panel developed
guidelines which outline how the physician should relate to the home care patient.
They describe the role of the physician as including medical management, such as
evaluation and assessments, and communication and coordination of the services with
the interdisciplinary team.

Medicare home health agency regulations require physicians to sign a plan of care
specifying all services the patient is to receive. This certification must be updated,
according to the regulations, every 60 days, but the doctor is not required to see the
patient. To be certified as a Medicare provider, each agency must have a medical
advisory board that meets periodically, and each board must have a medical director.

The role of a physician is also discussed in the Medicare Hospice regulations which
require hospices to have a physician medical director. As one of his/her
responsibilities this physician must be a member of the interdisciplinary team who
discusses the plan of care with all involved disciplines, either in person or by
teleconference.

Medicare Coverage

Title XVIII of the Social Security Act, Section 1861, authorizes Medicare payments for

home health services under certain conditions. The care must be provided by certified

home health agencies, which may be either freestanding or facility-based. They can be

voluntary not-for-profit, proprietary or governmental in nature.


For Medicare to reimburse the agencies, beneficiaries must be considered homebound,

get services under a plan of care established and periodically reviewed by a physician,

and receive skilled care. For purposes of qualifying for coverage, skilled care includes:

intermittent skilled nursing services, physical therapy or speech therapy services. Only

if the patient requires one of these qualifying services may the patient then get the

services of an occupational therapist, a medical social worker or a home health aide.

If the patient no longer needs intermittent skilled nursing care, physical therapy or

speech therapy, but continues to need occupational therapy, the beneficiary remains

eligible for Medicare coverage of home health services for the duration of the need

for occupational therapy. However, a beneficiary whose sole need is for custodial care

does not qualify.


Beneficiaries pay no coinsurance or deductibles for home health care other than for

durable medical equipment. Their claims are submitted to one of nine fiscal

intermediaries known as Regional Home Health Intermediaries.


Medicare covers home visits by a physician the same as any other physician visit.

Until recently, it did not separately cover the services of physicians for managing the

home health care of their patients, such as interfacing with the home health agency by



                                             2
telephone, reviewing medical records or signing plans of care. These services were
considered part of the physician’s work involved in other services, such as visits or
procedures. In the December 8, 1994 Federal Register, HCFA issued a new
regulation providing separate payment for physician care plan oversight services.

HCFA Activities

The HCFA Administrator has formed an internal task force to evaluate the home
health benefit. With more home and community-based care, he sees the need to
improve and redesign the home health benefit to assure that Medicare beneficiaries
receive high quality and affordable home health care.

This task force is expected to recommend both short-term and long-term
improvements in all aspects of the benefit. It has discussed restructuring the benefit
to better accommodate the differing needs of the patients with complex, post-acute
care or long-term custodial needs, and has also discussed the role of the physician in
home care.

Other HCFA activities include ongoing research efforts to improve the measurement
of quality in home health care, focusing on outcomes; revisions to the current plan of
care form; planned improvements to the survey and certification process; and studies
related to prospective payment in home health care.

Q@ce of Impector General (OIG) Home Health EfforLs

The HCFA administrator has asked the Inspector General to join in HCFA’S efforts
to examine home health care. The OIG has developed a strategic plan in response to
issues raised by the HCFA administrator. It focuses on management, costs and
payments, compliance with statutes, regulations and policies, utilization, and outcomes
of home health services.

The OIG has conducted an audit of home health agency visits in Florida to determine
whether payments to these agencies met Medicare reimbursement requirements. The
preliminary results show that too often the physician’s involvement is limited to signing
the plan of care prepared by the agencies without proper evaluation by the physician
of the patient’s medical needs. This resulted in the agencies’ making their own
determinations about the types and frequency of services the patients should receive
without the guidance of the physician.

Other Surveys

Aetna in Florida surveyed beneficiaries who had received home health care, primarily
in the Southeast, and the physicians who signed their plan of care. Their study
reported aggressive marketing by some agencies to maximize visits, overutilization and
a concern about the quality of care rendered. The physicians also indicated that many
beneficiaries did not need skilled care. Aetna is piloting another survey which will
send an explanation of benefits to the certifying physicians, along with a questionnaire

asking if the services the agency billed for were appropriate for that patient.


In 1990, the AMA surveyed and interviewed 1,161 family practice and internal

medicine physicians about their involvement in home care. It found that physicians

who refer approximately three patients a month to a home health agency spend

substantial amounts of time coordinating the care provided by the agency. Rural

physicians reported more involvement than their non-rural counterparts, Seventy-five

percent of the physicians interviewed regarded a home visit as important, but only half

reported making one or more home visits a year. The physicians considered the

current payment level for such visits inadequate; 45 percent indicated that they would

do more of them if reimbursements were higher. Eighty percent felt that home care

agencies should be used more frequently than they currently are.


METHODOLOGY

We identified the universe of 4,461 home health agencies (agencies) from the certified
agencies listed in the Online Survey Certification and Reporting System (OSCAR) that
also, according to 1992 National Claims History, filed Medicare claims during 1992 for
a 1 percent sample of Medicare beneficiaries. From these, we selected a stratified
random sample of 1000 agencies. The agencies were stratified by census regions
(Northeast, Midwest, South and West) with 250 in each region. A questionnaire was
sent to the sample agencies asking about the agency’s relationship with its patients’
physicians, its satisfaction with the physician role in home health care, and how the
physician role may be strengthened. The questions divided patient care into three
categories defined as follows: complex - requiring intensive care, using new
technologies (such as infusion therapy or ventilators); acule - requiring skilled care
(such as post hospital care or the exacerbation of a chronic condition); and chronic -
requiring long term care (less intensive than acute care.) Basic descriptive information
on home health agencies was accessed from the OSCAR file as well as from the
agencies.

We received 700 completed surveys within approximately one month which we
analyzed. There was no response bias with regard to region or ownership, The
responses from the agencies were tabulated and cross-tabulated by agency size, region,
rural/urban location, ownership, facility type and complexity of the patients they serve.
Few statistically significant differences were found. Where differences were found,
they are identified in the findings.

A subsample of 100 agencies (25 within each region) was selected for interviews by
telephone to obtain more in-depth answers about the present physician role in home
health care and how it can be strengthened. All together, 96 representatives of these
agencies were interviewed. Unless otherwise noted, when agency information is
reported, it is a result of analysis of the 700 mail surveys. The information from
analysis of the agency subsample is noted as such.



                                            4

From claims filed by the 1000 sample agencies, we identified unique beneficiary
physician combinations. These physicians are the ones who signed the plans of care.
We picked a random sample of 200 physicians from these combinations to interview
by telephone. We asked them about their current role in home health care, their
current interaction with home care agencies and their views on how their role could be
strengthened. We interviewed 85 physicians. We were unable to obtain the names of
10 physicians from carrier or agency data and were unable to locate 18. This left us
with a universe of 172 physicians. Of the remaining non-responding physicians, 25
refused to be interviewed, saying they do not do interviews or were too busy and 62
did not return our calls, even after repeated contact. This is a response rate of 49
percent. While there are no significant differences between the physician respondents
and non-respondents relative to region or specialty, we recognize that the low
physician response rate is a limitation.

From the random sample of the 200 physicians, we identified the 200 beneficiaries for
whom they signed plans of care. Due to the way the sample was selected, we cannot
determine whether the plans were initial or recertification. We obtained 1992
beneficiary histories for these beneficiaries. We reviewed them to determine whether
the physician who signed the plan of care billed for visits to the beneficiary and, if so,
how often. Of the beneficiary histories, nine contained unusable data; thus we
reviewed histories for 191. Some of these 191 histories appeared to have missing data.
In those cases we contacted the appropriate carriers for additional information.

The confidence interval for the responses to the physician survey using the lowest
possible respondent number (79) is plus or minus 11 percentage points at the 95
percent confidence level. The confidence intervals for the agency survey at the 95
percent confidence level are much smaller, always within 5 percentage points.

It should be noted that all of our data collection occurred prior to the regulation
providing separate payment for physician care plan oversight services. We conducted
our review in accordance with the Standards for Inspections issued by the Presidents’
Council on Integrity and Efficiency.




                                            .J
                                     FINDINGS


PHYSICIANS ARE MOST INVOLVED IN REFERRING PATIENTS,
APPROVING PLANS OF CARE, AND MONITORING THE PROGRESS OF
COMPLEX PATIENTS

Re$ewals to home health agencti are usually initiated by physicians either alone or in
collaboration with someone etie

Agencies and physicians agree that physicians are involved in referrals. Virtually all
agencies (99 percent) report that physicians participate in patient referrals, often in
collaboration with hospital discharge planners.

Almost all physicians say it is usually their idea, or a combination of their idea and
someone else’s, to refer patients for home health care. Half of them say the hospital
discharge planner or the patient’s family assists in the decision.

The number of patients physicians refer varies. Thirty-eight percent of physicians we
interviewed refer from one to five; 32 percent refer six to ten, and 31 percent refer 11
to 60 patients per month. Those physicians that refer the most patients are more
likely to be specialists in internal medicine and orthopedic surgery.

Most of the sample physicians have a reikztionshipwith their home health pahena

A review of 1992 beneficiary histories reveals that at least 91 percent of the physicians
who signed the plan of care (either initial or recertification) had a relationship with
the patient. Some of the remaining patients may have also had such visits, but this
information was not available in the histories. For example, the patient may not have
had Medicare Part B or may have been in a Medicare HMO.

Of the 91 percent with a relationship, more than three-quarters      had four or more
visits in 1992. See table below.

                   Visit Frequency               Percent of Physicians

                   10 or more visits                    29 percent
                       7-9 visits                       21 percent
                       4-6 visits                       29 percent
                        1-3 visits                      21 percent




                                            6

Physicians review and sign the plans of care

Eighteen percent ofphysicians report preparing the plans of care themselves. Ninety-
three percent of the physicians who do not prepare them saythey review the plans of
care before signing them. Usually the agency or discharge planner fills them out
according to the physician’s orders or instructions and sends them to the physician for
signature. Almost half of the physicians who review plans of care report sometimes
making changes before signing them. Many of those who do not make changes
attribute it to the fact the plans of care have been filled out exactly as ordered.

Virtually all of the agencies (99 percent) indicate it is the patient’s personal physician
who signs the plan of care. Seventy-seven percent of the agencies believe only a
physician who has personally seen the patient should sign it.

Seventy-eight percent (66) of the physicians state they usually determine the types of
visit the patient gets. Of the remaining 19 physicians who do not make that
determination, 17 say they let the agency nurse or other professional make it. A lesser
number of physicians, 56 percent, say they determine the number of visits the patient
gets. For those who do not, 89 percent allow the agency nurse or other professional
to make that determination.

Eighty-five percent (72) of the physicians believe a physician should see the patient
before signing the initial plan of care. Only 28 percent (24), however, believe the
physician needs to see the patient before recerti~ing the plan of care. Physicians
report they are more likely to see a patient for recertification if the patient’s condition
changes, rather than just for routine recertification.

Some physicians, especially orthopedists and surgeons, say that their patients rarely
have home health care long enough to require recertification and are usually
discharged within 60 days. Both physicians and agencies say some of these patients
have unrelated medical problems requiring home care. Some physicians and agencies
are concerned because although the specialist has referred the patient to home care,
there are other problems that should be managed by a different physician, usually the
patient’s primary physician. One agency administrator says, “Specialists only want to
address one aspect of medical management and often leave the patient without a
central physician addressing overall medical issues.”

Physicians are most involved when caringfor complex patients

Both agencies and physicians have greater involvement with the complex patient.
Seventy-nine percent of physicians say their complex patients require more physician
involvement than their chronic patients. The agencies agree: 81 percent say they are
in contact with the patient’s physician 5 or more times a month for complex patients.
Communication is more frequent in these cases because it is imperative the physician
knows the status of the case in order to prevent problems. Most frequently, the



                                               7

agency nurse communicates with the physician, but other professionals may
communicate once or twice a month.

PHYSICIANS ARE LESS INVOLVED IN COORDINATING SERVICES,
VISITING PATIENTS AT HOME AND PARTICIPATING IN
INTERDISCIPLINARY CONFERENCES

Physicians feel they coordinate their patienti’ home care; agencies disagree

Eighty-three percent of physicians believe that they serve the coordinating role.
Several feel that they provide continuity of care, just like in the hospital.

In contrast, a majority of agencies (61 percent) do not attribute the role of
coordination to the physician. The Visiting Nurse Associations are more likely than
others to say the physician does not coordinate care. More than half of all agencies
say the nurse is usually responsible for coordinating the patient’s care. An
administrator, when discussing the physician’s relationship with other members of the
team, says, “I would like to see more of a partnership, more directly related to patient
care.”

Interviews with the agencies and the physicians suggest these differing opinions are
due to the two groups’ different perspectives. The agencies view the coordinating role
as actively managing the interdisciplinary team, including the physician. The
physicians see the coordinating role as overseeing the case, being involved in the
medical management of their patient, and determining the number and type of visits.
Seventy-two percent of the agencies are satisfied with physician involvement in the
medical management of the patient. An agency administrator says, “the physician is
the key member in the delivery of care.” Agencies agree that the physician determines
the number of visits for medical management, but say other professionals make that
determination for each discipline. One agency administrator says, “the home care
nurse should be responsible for coordination of all home care services.” Another
says, “I hope you are not reducing the role of the physician because they are
responsible for medical management always.”

Physicians do not u.wQllytake part in interdisciplimnyconferences or make home vikifi

Forty-three percent of agencies report that some of their patients’ personal physicians
participate in agency patient conferences. Although these conferences are not
frequent, they are more likely to occur when patients experience problems.

Seventy-nine percent of physicians say they have not participated in such conferences.
Both agencies and physicians agree that physicians participating in patient conferences,
either in person or by telephone, would be ideal, but many say that physicians’ busy
schedules makes it impossible and unrealistic.




                                             8

Fourteen percent ofphysicians report making home visits; most of them say these
visits are infrequent and only when absolutely necessary. They add that since
Medicare pays so little for a home visit it is not affordable for them to see patients in
their home. They visit only when the patient cannot get to the office. Some
physicians feel that physicians should visit patients at home more frequently. Some
subsample agencies feel that physicians should make home visits to their patients
occasionally. Perhaps, at times, with the home health nurse.

BOTH AGENCIES AND PHYSICIANS IDENTIFY SOME OBSTACLES AND
ISSUES RELATED TO THE PHYSICIAN ROLE

Communication

While all agree that good communication is extremely important for quality patient
care, some obstacles are identified. Agencies say they continually work to improve
communication with physicians. Ideas they have tried include newsletters, lunch or
breakfast meetings to get the physician involved, simplifying requirements, setting a
special time for phone calls, hand carrying orders to the physician, providing cellular
phones to the visiting nurses, and having a physician from the medical advisory
committee communicate with the patient’s personal physician, especially in problem
cases.

Ninety-two percent of physicians are satisfied with their communication with agencies
and seventy-three percent of agencies are satisfied with physician communication with
them. Agency satisfaction is somewhat lower with physician communication with other
home health professionals, such as the primary care nurse or therapists, with only
sixty-three percent of agencies satisfied.

However, three-quarters of the agency subsample mention obstacles which get in the
way of good communication between the agency and the patient’s physician. They
include physicians being too busy to do all the paperwork and answer all the agency’s
phone calls; physicians not getting paid for their time; the physician’s office staff
making it difficult to reach him/her; the visiting nurse and the physician having
difficulty finding convenient times to get together on the phone. Agencies consider it
critical that nurses have access to physicians for medical direction and support.

Physicians feel the agencies could improve communication by calling at scheduled
times and leaving clearer messages, or having one nurse responsible for contacting the
physician so that many different people do not call about the same thing. Paying the
physician for the time he/she spends on the phone and doing paper work and reducing
the amount of such paperwork are also suggestions made by physicians.

Medical Directom

Agencies say having a medical director would improve communications. Eighty-six
percent of the agencies in the subsample think home health agencies should have a


                                            9
medical director. They feel this physician would be a good liaison with the patient’s
personal physician. Physician to physician communication is valuable, especially if
there are problems and the medical director would be helpful in educating other
physicians. Sixty-eight percent of agencies report currently having a medical director,
although in some cases he/she is actually the medical director of the advisory board or
the hospice program and not functioning as a full time medical director for the home
health agency. Thirty-five percent of physicians feel that agencies should employ
physicians, usually in a medical director role.

Plans of Care

Physicians and agencies generally agree that physicians should continue to sign initial
plans of care; however, most subsample agencies feel that qualified staff other than
the physician can sign the plan of care for recertification or for chronic patients

Almost all (97 percent) agencies indicate that physicians should sign the plan of care
for complex patients; ninety-two percent say physicians should sign for acute patients;
and sixty-four percent for chronic patients. Sixty-three percent of physicians feel that
they should sign all plans of care, regardless of the complexity of the patient’s
condition.

Three-quarters of the physicians consider their arrangements with the agencies for
completing and signing the plans of care satisfactory, although almost half of them find
it burdensome. Physicians frequently complained about the amount of paperwork
required for home care. Three-quarters of the physicians believe that when they sign
the plan of care they are liable for the home health services their patients receive.
Some volunteer that there are agencies that try to add too many services, especially
home health aide services. They say they stop referring patients to these agencies.

Regardless of the condition of the patient, fifty-three percent of the subsample
agencies feel that the physician should always sign the initial plan of care; but a
majority (57 percent), think the physician does not need to sign the recertification.
These agencies and some physicians say that a qualified person other than the
physician should be allowed to sign the plan of care, such as the prima~ care nurse or
nurse practitioner or the treating therapist. They consider it especially appropriate for
services to chronic, stable patients, such as those only needing a catheter change once
a month, or for the therapist, dietitian or social worker services they have evaluated.
Most agencies and some physicians suggest support services, such as home health aide
or personal care services, may be signed for by a nurse. One agency administrator
voices the opinion of others when she says, “Under Medicare we are tied to the
medical model which is expensive. We should look to use other professionals to fill
some needs.”




                                           10

Burdensome Paperwork

Sixty-five percent of agencies and51 percent ofphysician respondents find the process
of reviewing and signing plans of care burdensome, The large agencies and the
Visiting Nurse Associations are most likely to feel burdened. Agencies feel paperwork
is too complex and burdensome for them. An administrator agrees and says that
having too many orders for doctors to sign strains the agency - physician relationship.
One suggestion is to accept telephone orders for changes in the frequency of visits so
that the agency does not have to generate a piece of paper for such minor changes.

Physicians indicate that there is too much paperwork and find it difficult to find the
information on the plan of care that they consider important. They suggest paring
down the amount of required information and highlighting the medical care. An
agency respondent says, “The plan of care as it is today is a compilation of physician,
nursing, therapy and social service practices, each of which is specific unto itself, but
the physician is expected to sign for all of it.” Several respondents suggested the plan
be simplified.

Physician Awareness and Education

Some agencies feel that the physicians’ awareness and education in home health care
is inadequate. They say medical schools usually do not include home health care in
their curriculum. Agencies also mention that some physicians lack understanding of
the Medicare home health benefit.

Overall Role of Physicians

Forty-six percent of agencies feel the physician role should be stronger than it
presently is; thirteen percent feel it should be weaker; and forty-one percent feel it
should stay the same. Eighty-eight percent of the agencies believe if the physicians
were paid for their home care case management role, they would get more involved;
seventy-one percent of the physicians agree. As noted, this data were collected
before physicians were paid for care plan oversight.

RECOMMENDATIONS

We support the work of HCFA’S home health work group in reviewing and
restructuring the home health benefit. As home health care continues to expand,
there will be ongoing discussions about the physician role. The HCFA will be pressed
to continue its leadership role to undertake appropriate activity and better define and
tell what the physician role should be.
Therefore, we recommend:

  �	   The HCFA should continue its efforts to change the plan of care to ensure it
       conveys critical information to caregivers and relieves unnecessary burden from
       physicians,

  �	   The HCFA should strengthen its efforts to educate both agencies and
       physicians about its policies regarding the physician’s role in home health care.

Issues for Further Su.dy

Based on our findings and on comments received on our draft report, there are a
number of issues about the role of physicians which require further study.

       Should other professionals such as the patient care coordinator, home health
       nurse, physical therapist, occupational therapist, speech therapist or social
       worker take on more responsibility for certain aspects of home health care? If
       so, how does this impact the physician’s role?

       Should the complexity of the case determine physician involvement? If so,
       should the physician be more involved in complex cases and less involved in
       chronic cases?

       Should home health reimbursement be different for different levels of care?     If
       so, should chronic care cases be reimbursed a lower level than those more
       complex cases?

       Does payment to physicians for care plan oversight lead to greater physician
       involvement ?

COMMENTS

Comments on the draft report were received from HCFA, ASPE and the Acting
Assistant Secretary for Management and Budget (ASMB.) Suggestions for additional
information and clarifications of the text have for the most part been incorporated
into the final report. The actual comments received are included in Appendix A.

The HCFA defers action on our recommendations at this time. Nevertheless, we
appreciate their recognition of the importance of our recommendations and support
their efforts towards developing a Core Standard Assessment Instrument which would
significantly impact on the requirements for the plans of care. We look forward to
their decisions on our recommendations after issuance of the final report.

The HCFA, ASPE, and ASMB all commented on physician payment for care plan
oversight. We recognize that HCFA is now reimbursing physicians for care plan
oversight. We plan a follow-up study to see whether this has lead to greater physician


                                           12
involvement and prudent utilization of the home health benefit as HCFA’S comments
suggest.

The ASPE suggests that further study is needed to examine the actual behavior of
physicians and other providers. We support further study of physicians in home health
care that could contribute useful information. We added a new section to report on
issues for further study.

Both HCFA and ASPE expressed concerns about specific evaluative issues that fall
outside the scope of this study. This report provides descriptive rather than evaluative
information. We modified the report to make this clearer.

The ASPE raised concerns about bias in self-reported information. This is always a
problem in these kinds of studies. We had addressed it in our original design by
obtaining information from many diverse sources of data. We obtained information
from both home health agencies and physicians. We also obtained patient payment
records to establish whether a relationship existed between patients and the physicians
who signed the plans of care. We provide a methodology section for the reader to
draw his/her own conclusions.

The ASPE requested that we include study instruments in our reports.     We usually do
not do this, but they are available upon request.




        —
APPENDIX      A

   COMMENTS




     A-1
             ,*   ,mw’,,

    �   .+
                                %,

    �                                                                                               Health Care
g                                    DEPARTMENT   OF HEALTH&      HUMAN SERVICES                    Financing Administration
5                      /    /




                                                                                                    Memorandum
                                                                         1
                           DATE            twi?
                                              271995                 M
                           FROM	          Bruce C. Wade
                                          Administrator w     -

                           SUBJECT	       Office of Inspector General Draft Reports: “The Physician’s Role in Home
                                          Health Care,” (OEI-02-94-O0170) and “Home Health Agencies: Alternative
                                          Coverage and Payment Policies,” (OEI-12-94-00180)

                           TO	            June Gibbs Brown
                                          Inspector General


                           We reviewed the subject draft reports which examine home health care provided under
                           the Medicare program. Our comments are attached for your consideration.

                           Thank you for the opportunity to review and comment on these reports.    Please advise
                           us if you would like to discuss our position on the recommendations.

                       Attachment




                                                                                               —,
                                                                       .._—.   -
             Comments of the Health Care Financin~ Administration (HCFAj
                  on Office of Inspector General (OIGl Draft Reports:
             “The Phvsician’s Role in Home Health Care,” (OEI-02-94-00170~
             and “Home Health Agencies: Alternative Coverage and Pavmen~
                               policies,” (OEI-12-94-00180\


OIG Recommendations on “The Phvsician’s Role in Home Health Care”
1.	  The HCFA should continue its efforts to change the plan of care to ensure it
     conveys critical information to caregivers and relieves unnecessary burden from
     physicians.

2.	    The IICFA should further communicate its expectations about physician
       involvement and take steps to assure that it is more clearly understood by home
       health agencies and physicians.

HCFA Response

HCFA defers action on the above recommendations at this time. We are in the process

of examining issues related to plans of care and the physician’s role and recognize the

importance of both recommendations. However, we believe it would be premature to

make immediate changes.


Clearly one of the most important problems facing the Medicare home health benefit is

utilization. OIG is commended for its attempts to better understand the appropriate

role of the physician in monitoring utilization and appropriateness and duration of care.


 HCFA has addressed the issue of physician involvement through regulations. In the

 December 8, 1994 Federal Register, HCFA issued a new regulation providing separate

 payment for physiciancare plan oversightservices. Reimbursing physicians for care

‘oversightservices should lead to greater physician involvement and prudent utilization of

 the home health benefit.


HCFA has also established a Medicare Home Healfh C .re Work Group which is

currently drafting revised Home Health Agency Conditions of Participation. HCFA is

also developing a Core Standard Assessment Instrument. Requirements for the

assessment instrument could significantly impact the information requirements on the

plan of care. The work group expects to develop recommendations after it completes its

research. Until then our operational plans are to continue using HCFA Forms 485 and

486 (Medicare Collection of Medical Information on Home Health Services).


We note that the report recommendations do not address the two main questions listed

on page 3: “Are physicians effectively fulfilling their gatekeeper role in initiating and

monitoring th’eplan of care?” “Do physicians rubber stamp the plan of care?” While the

report recognizes that there are discrepancies in how physicians and agencies view the

 Page 2

 physician’s role in coordinating care, it does not address whether physicians are an
 effective gatekeeper. Perhaps the study might more effectively address “Does greater
 physician involvement result in a more cost-effective utilization of the home health
 benefit?”

 Additionally, we would be interested in any specific suggestions OIG may be able to
 offer on the following:

          o	   After interviewing both agencies and physicians, does OIG have any
               specific suggestions of ways the plan of care can be changed’?

        o	     Does OIG have specific suggestions on how the role of physicians should
               be better communicated?

        o	     Does OIG feel that after talking to agencies and physicians, there is a
               consensus on what the physician role ought to be?

Comments on “Home Health Agencies: Alternative Coverape and Pavment Policies”
The report appears to assume that other agencies are more effective than Medicare in
controlling costs. However, there are no data in the report comparing the average
number of visits or expenditures per beneficiary. While the report identifies other plans’
limits on utilization, there may be other factors, such as age, health status, and income,
that could explain differences in utilization, if they exist.

 We are in the process of developing our approach to revitalizing the coverage and
 payment policies for home health agencies. The roints of Further Analysis in this report
 raise interesting alternatives that will be considered by HCFA as it formulates its plan to
‘revitalize the home health benefits.
:.4L.
2
2
 �
 a+

 -0
  **
    >.   .’,,


                       DEPARTMENT      OF HEALTH & HUMAN SERVICES
                                                                                            “
                                                                                                    Officeof the Secre[arY

    +,,,, ,d
                                                                                                    Washington,   D.C.   20201




                                                              MAY i. .W5



                TO:	             June Gibbs Brown
                                 Inspector General

                FROM:	           Assistant Secretary for
                                 Planning and Evaluation

                SUBJECI”:        OIG Draft Reports on Home Health Care -- COMMENTS


                The following are our comments on the draft inspection report, “The Physician’s Role in Home
                Health Care,” OEI-02-94-00 170. There ~e no Cements on the second report, “Home Health
                Agencies: Alternative Coverage and Payment policies,” OEI-12-94-00 180.

                GENERAL COMMENTS

                .        The purpose of the report needs c~~rification, The pur-poseis stated as “to describe the
                         current role ... and obtain suggestions as tO ho~v this role can be strengthened”. J’?e agree
                         that this report describes the current role of physicians, based on physician and pro~’ider
                         perceptions. However, since the effectiveness of the physician’s role is not evalua[cd in
                         this StUdy, \VC recommend     C]imindting references   to strengthening  the physician’s role.

                .        1’IIcstudy’s limitations   S]IOU]d be sf~te~.  The repofl describes what conclusions can be

                         drawn from the study but does not define what inferences are outside the study’s scope.
                         For example, since the study does not include a comparison of the perceived role to
                         current reglllatory requirements, intewretations related to current ]a\v are outside the SCOp~
                         of this study. Furthermore, because the measwements of physician involvement may be
                         biased due to self-report, the findings should bc interpreted with caution. Finalljr, the 10\\f
                         physician response rate to the telephone interview (43%) should be noted as a limitation.

                 �
                         llcfcrcuccs to g~te]<ccping should bc rr-~iscd. Since the effcctivcncss of the physician’s
                         rOIC as a ~a(ckccper is not c~~aluatcd in this study, rcfcrcnccs [O this  as part of the study’s
                         purpose should bc climinstcd (see p.3 paragraph 4). Instead, the report’s findings should
                         SUiJ~CS[  further study of this issu~ b~c2us~ they indica[~ {hat other professionals (e.g.
                         l]~irsi[}g,tl~crapy, sociol \vork) dctcrnlinc the ~nloun[ and [\Pc of c;lrc, (i~i~]l r:]rc chm~cs
                         b> [1~~pl}ysici~n) and [hat [hc physician do~s not rolllincly .& [Ilc pa[icn[ to rcccrtify care.
Page 2- June Gibbs Brown

�
      Revisions to the recommendations are needed. Since the study is based on perceptions
      versus actual behavior,’a further study fiat examines the actual behavior of physicians and
      other providers should be recommended. Additionally, the report should recommend that
      HCFA consider revising its expectations about physician involvement to reflect current
      practice. For example, the report states that physicians are most involved in complex
      medical cases. Since c~ent law allows reimbursement to physicians for care plan
      oversight in all cases, this should be considered a highly relevant finding.

.     The report should include the study instruments. It is difficult to interpret these
      findings without knowing the actual questions that were asked. We recommend you
      include the questionnaires in an appendix.




Prepared by: HP: Susan Manfredi 690-7862/DALTCP:Ruth Irwin 260-0370

                                                                ‘
     *.
          >,   ‘,




               Jg
 .
.                          DEPARTMENT   OF HEALTH    & HUMAN   SERVICES                  office of the Secretary
z
~
 z
  %3+
    .8,.10
    7                                                                                    Washington,   D.C.   20201
                                                        MAR    6i3s




                    To:	          Inspector       General
                                  Attn:     George    Grob
                    From:	        Elizabeth      M. James
                                  Acting    Assistant     Se                                           et

                Subject       :   Draft   OIG Report--Ph&ci.an’s             Ro e “n Home Health Care
                                  (OEI-12-94-00170)     --Concur      with    cu  ent
                                     ~~-qll-~’?~
               We recommend that the final report acknowledges that, effective
               this calendar year, Medicare now makes separate payments to
               physicians for their work in providing home health care plan
               oversight.       Because the draft report finds that lack of payment
               was one obstacle        to improving    physician     involvement    i-n the
               ongoing     care of home health      patients,      we believe    it is
               appropriate      that   the new payment      policy   be discussed     in the final
               report   .

               We appreciate the opportunity to review the draft report.

